August 9, 2021
VIA HAND DELIVERY
& ELECTRONIC FILING

Felicia H. Ellsworth
+1 617 526 6687 (t)
+1 617 526 5000 (f)
felicia.ellsworth@wilmerhale.com

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Egbert v. Boule, No. 21-147

Dear Mr. Harris,
I am counsel of record to respondent Robert Boule in the above-captioned case. The petition for
a writ of certiorari in this case was filed on July 30, 2021, and was docketed on August 3, 2021.
The response to the petition is currently due on Thursday, September 2, 2021.
Due to the press of other business, I respectfully request a 30-day extension of time within which
to file a response to the petition, to and including October 4, 2021. Respondent has not
previously sought any extensions in this matter. Petitioner does not oppose the requested
extension.
Respectfully submitted,
/s/ Felicia H. Ellsworth
Felicia H. Ellsworth
Cc:

Sarah M. Harris

